No. 19-7

In the Supreme Court of the United States
SEILA LAW LLC,
Petitioner,
v.
CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

CERTIFICATE OF COMPLIANCE
I, Andrew J. Pincus, counsel for the Chamber of Commerce of the United
States of America, hereby certify that, according to the word-count tool in Microsoft
Word, the Brief of the Chamber of Commerce of the United States of America as
Amicus Curiae in support of petitioner consists of 6,535 words, including footnotes
and excluding the sections enumerated by Rule 33.1(d). The Petition therefore
complies with Rule 33.1(g).
/s/ Andrew J. Pincus
Andrew J. Pincus
Mayer Brown LLP
1999 K Street, N.W.
Washington, D.C. 20006-1101
(202) 263-3000
apincus@mayerbrown.com

